  BUREAU OF JUSTICE ASSISTANCE 

DEMOCRATIC NATIONAL CONVENTION

         SECURITY GRANT TO

THE CITY OF BOSTON, MASSACHUSETTS




      U.S. Department of Justice 

   Office of the Inspector General 

            Audit Division 

  Philadelphia Regional Audit Office 



     Audit Report GR-70-06-009 

             May 2006

             BUREAU OF JUSTICE ASSISTANCE 

    DEMOCRATIC NATIONAL CONVENTION SECURITY GRANT 

         TO THE CITY OF BOSTON, MASSACHUSETTS

                   EXECUTIVE SUMMARY 


      The U.S. Department of Justice (DOJ), Office of the Inspector
General (OIG), Audit Division, has completed an audit of the
Democratic National Convention Security grant 2004-DD-B5-1136.1
The DOJ, Office of Justice Programs (OJP), Bureau of Justice
Assistance (BJA), awarded the City of Boston this grant to provide
security to delegates, visitors, and residents during the
2004 Democratic National Convention (DNC). In total, the BJA
awarded Boston $33,738,790 for planning and implementing security
measures. As of January 2006, Boston had made $26,240,056 in
grant-related expenditures.

      The purpose of our audit was to determine whether the costs
reimbursed under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms
and conditions of the grant. We also assessed Boston’s program
performance in meeting grant objectives and overall accomplishments.

       We determined that Boston generally complied with grant
requirements in the areas we tested. However, Boston did not provide
justification or obtain approval for $56,506 in excessive consultant
expenses, or provide adequate support for $18,459 in personnel
overtime charged to the grant. As a result of the deficiencies, we
question $74,965 in expenditures.2

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope,
and methodology appear in Appendix I.

      We discussed the results of our audit with Boston officials and
have included their comments in the report, as applicable. In addition,
we requested a response to our draft audit report from Boston and the
BJA, and their responses are appended to this audit report.


       1
         The OIG will initiate in the near future an audit of a similar grant to the City
of New York to provide security for the 2004 Republican National Convention.
       2
        The Inspector General Act of 1978, as amended, contains our reporting
requirements for questioned costs. However, not all findings are dollar-related. See
Appendix II for a breakdown of our dollar-related findings and for definitions of
questioned costs.

                                           -i-
                               TABLE OF CONTENTS 




INTRODUCTION........................................................................ 1 

Office of Justice Programs ............................................................ 3        

Bureau of Justice Assistance ......................................................... 3         

City of Boston............................................................................. 3    

Our Audit Approach ..................................................................... 3       

FINDINGS AND RECOMMENDATIONS ....................................... 5 

Compliance With Essential Grant Requirements .............................. 5                    

Reporting .................................................................................. 5   

    Financial Status Reports ........................................................ 5           

    Progress Reports .................................................................. 6        

Budget Management and Control .................................................. 7               

Expenditures ............................................................................. 9      

Drawdowns .............................................................................. 20      

Program Performance ................................................................ 21          

Conclusions.............................................................................. 23     

Recommendations..................................................................... 23          

APPENDIX I -	          OBJECTIVES, SCOPE, AND METHODOLOGY .... 24 

APPENDIX II -	 SCHEDULE OF DOLLAR-RELATED FINDINGS... 27 

APPENDIX III - CITY OF BOSTON'S RESPONSE TO THE                      

               DRAFT REPORT .............................................. 28 

APPENDIX IV -	 OFFICE OF JUSTICE PROGRAMS RESPONSE TO 

               THE DRAFT REPORT ....................................... 30 

APPENDIX V - 	OIG, AUDIT DIVISION, ANALYSIS AND 

              SUMMARY OF ACTIONS NECESSARY TO                    

              CLOSE THE REPORT ....................................... 32 

                                INTRODUCTION

      The U.S. Department of Justice (DOJ), Office of the Inspector
General (OIG), Audit Division, has completed an audit of the
Democratic National Convention Security grant 2004-DD-B5-1136.
The DOJ, Office of Justice Programs (OJP), Bureau of Justice
Assistance (BJA), awarded the City of Boston this grant to provide
security to delegates, visitors, and residents during the
2004 Democratic National Convention (DNC). In total, the BJA
awarded Boston $33,738,790 for planning and implementing security
measures. As of January 2006, Boston had made $26,240,056 in
grant related expenditures.

      Prior to both the Democratic and Republican National
Conventions in 2004, Congress recognized that the host cities would
require assistance to pay for security-related expenses. As part of the
Consolidated Appropriations Act of 2004, Congress directed the BJA to
provide the host cities of Boston and New York $25,000,000 each to
defray security costs, including overtime for law enforcement officers.3

      After the DNC occurred, but prior to the start of the
Republican National Convention, Congress passed the Fiscal Year 2005
Department of Defense Appropriations Act on August 5, 2004. The Act
directed the BJA to make an additional $25,000,000 available for each
host city. Some members of Congress cited several factors to support
the increased funding, such as terrorist bombings in Europe and a
warning from the Attorney General and Director of the Federal Bureau
of Investigation that al Qaeda intended to “hit the United States hard”
during the months the conventions were held.

      From the initial appropriation, Boston submitted a budget for
$24,852,500 and received the grant funding on May 19, 2004. Boston
budgeted all security expenses around the original $25,000,000
appropriation and had not anticipated additional grant funding would
be made available after the convention ended. When the
supplemental $25,000,000 was made available in September 2004,
Boston had already incurred most of budgeted expenses related to the
DNC. However, Boston submitted a budget for, and received, an
additional $8,886,290 out of the possible $25,000,000 in supplemental
grant funds. Boston’s supplemental budget consisted primarily of

       3
          The OIG will perform in the near future an audit of the BJA grant awarded to
the City of New York for security expenses associated with the 2004 Republican
National Convention.
                                        - 1 -

overhead costs, fringe benefits, and additional expenses incurred by
contractors who assisted with security aspects of the DNC.

      The BJA approved the grant through January 31, 2006. In the
last month of the grant period, Boston had not requested
reimbursement for all its grant-related expenses and requested a
2-month extension of the grant period. The BJA granted the
extension, and as of January 2006, Boston had made a total of
$26,240,056 in grant related expenditures. Boston told us it
anticipates there will be approximately $2,000,000 more in
expenditures by March 31, 2006. The majority of the remaining
charges include indirect charges that equal five percent of all grant
expenditures. Since Boston does not anticipate spending all of the
budgeted funds, the remaining available funds of approximately
$5,700,000 will be retained by the BJA.

       The largest category of expenditures was overtime for police,
fire, and support personnel from Boston and nearby state and local
agencies involved in security efforts during the DNC. As discussed in
the expenditure section of this report, charges to the grant also
included: pre-event training; supplies; and equipment such as radios,
riot gear, and closed circuit security camera systems.

      The objective of the audit was to determine whether
reimbursements claimed for costs under the grant were allowable,
supported, and in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the grant. We also assessed
Boston’s performance in meeting grant objectives and its overall
accomplishments with the grant funds.

      OJP administered this grant through the BJA Edward Byrne
Memorial State and Local Law Enforcement Assistance Discretionary
Grants Program. Eligible beneficiaries of this program include state
and local governments, public and private organizations, and tribal
governments. The objectives of this program are to provide leadership
and direction in controlling the use and availability of illegal drugs and
to improve the functioning of the criminal justice system.




                                  - 2 -

Office of Justice Programs

       OJP within the U.S. Department of Justice provides the primary
management and oversight of the grant we audited. Through the
programs developed and funded by its bureaus and offices, OJP works
to form partnerships among federal, state, and local government
officials in an effort to improve criminal justice systems, increase
knowledge about crime, assist crime victims, and to improve the
administration of justice in America.

Bureau of Justice Assistance

      The BJA is one of five OJP bureaus and is the agency that
awarded the DNC security grant. The BJA’s stated mission is to
support local, state, and tribal justice strategies to achieve safer
communities through leadership and services in grant administration
and criminal justice policy development. The BJA’s goals are to
improve the functioning of the criminal justice system and to reduce
and prevent crime, violence, and drug abuse.

City of Boston

     The City of Boston is the state capital and largest city in
Massachusetts. Boston is the 24th largest city in the United States,
with nearly 600,000 residents. Located on the eastern coast of the
state, Boston is geographically compact with an area of only 48 square
miles. The population of the city nearly doubles during the day with
workers, students, and tourists presenting a vulnerable densely
populated area.

      In November 2002, Boston won the bid to host the 2004
Democratic National Convention to take place July 26-29, 2004. At
the convention, Democratic Party members gather to nominate their
presidential candidate. Boston had not previously hosted a national
political convention. Through private fundraising, Boston promised a
$49,500,000 financial package to support the convention.

Our Audit Approach

      We tested compliance with what we considered to be the most
important conditions of the grant. Unless otherwise stated in our
report, we applied the OJP Financial Guide as our primary criteria in
auditing this grant. The OJP Financial Guide serves as a reference
manual assisting award recipients in their fiduciary responsibility to
                                  - 3 -

safeguard awarded funds and ensure funds are used appropriately.
We tested Boston’s:

     •	 Reporting to determine whether the required Financial Status
        Reports and progress reports were submitted on time and
        accurately reflect grant activity.

     •	 Budget Management and Control to determine whether the
        grantee adhered to the OJP-approved budget for expenditures
        of grant funds.

     •	 Grant Expenditures to determine whether the costs charged
        to the grant are allowable and supported.

     •	 Requests for Grant Funding to determine whether the
        requests were adequately supported and if the grantee
        managed grant receipts in accordance with federal
        requirements.

     •	 Program Performance to determine whether Boston
        achieved grant objectives and to assess performance and grant
        accomplishments.

      When applicable, we also test for compliance in the areas of
program income, matching funds, and monitoring of subgrantees. For
this grant, we determined that Boston generated no program income,
matching funds were not required, and there were no subgrantees.




                               - 4 -

               FINDINGS AND RECOMMENDATIONS


    COMPLIANCE WITH ESSENTIAL GRANT REQUIREMENTS

    We determined that Boston generally complied with grant
    requirements in the areas we tested. However, Boston did not
    provide justification and obtain approval for $56,506 in excessive
    consultant expenses, and did not have adequate support for
    $18,459 in personnel overtime charged to the grant. As a result
    of these deficiencies, we question $74,965 in expenditures.

Reporting

Financial Status Reports

      Financial Status Reports (FSR) provide the BJA with a snapshot
of Boston’s grant-related expenditures and obligations for each
calendar quarter throughout the life of the grant. Boston was required
to submit eight quarterly FSRs between February 2004 and
January 2006. As part of the audit, we reviewed these reports for
accuracy and timeliness. The following table presents the dates and
amounts of each FSR.

            FSRs Submitted to OJP as of January 2006

            FSR Quarter Ending Date       Expenditure Amount
            March 31, 2004                                  $0
            June 30, 2004                           $1,907,642
            September 30, 2004                      $1,151,299
            December 31, 2004                      $11,656,601
            March 31, 2005                          $1,762,939
            June 30, 2005                           $7,435,555
            September 30, 2005                      $1,562,465
            December 31, 2005                         $593,946
            Total Expenditures
            Reported                              $26,070,447
            Source: BJA grant files

      Boston officials told us that expenditure data reported on the
FSRs is retrieved from the city’s computerized accounting system. All
grant-related expenditures are entered into the system under a
specific code that identifies the expenditure as DNC-related and grant
reimbursable. At the end of each quarter, the city runs a query from
the accounting system that totals all grant expenditures and
                                 - 5 -

obligations incurred during the quarter. We were able to match the
information contained in each FSR to the expenditure data provided
from the accounting system and determined that the FSRs accurately
reported grant expenditures and obligations.

       To determine if the FSRs were submitted to OJP within 45 days
of the end of each quarter as required by the OJP Financial Guide, we
reviewed the submission date on each FSR. We determined that the
first FSR was late by 53 days, and 3 other FSRs were 2 to 3 days late.
Boston officials told us the first report was late because the grant was
awarded with a retroactive start date and after the first quarter report
would have been due, so they were not aware that a report was
required.

      Because only the first report was significantly late, and 7 reports
were subsequently submitted on time or within 2 to 3 days of the due
date, we are satisfied Boston is providing OJP with timely FSRs.
Overall, we found that Boston has submitted accurate FSRs in a timely
manner.

Progress Reports

      Grant recipients are required to submit progress reports to OJP
that describe the performance of grant activities and accomplishments
of the objectives set forth in the approved award application. We
reviewed the four progress reports Boston submitted to OJP to
determine if the reports were submitted on time and accurately
reported grant activity.

      We found that each report consisted of a single-page narrative
describing in broad terms the activities associated with the grant
during the 6-month period. We reviewed grant-related documents and
interviewed city officials to determine if the information contained in
the reports was accurate. We determined that the progress reports
provided an accurate description of grant activities for each period.

       To determine if progress reports were submitted to the BJA
within 30 days of the end of each semiannual reporting period as
required by the OJP Financial Guide, we reviewed the submission date
on the reports. We found that two of the four reports were submitted
after the deadline. Boston was 22 days late submitting the second
report for the quarter ending December 31, 2004, and it was 4 days
late submitting the third report for the quarter ending June 30, 2005.

                                  - 6 -

Because only one progress report was submitted significantly late, we
are satisfied that Boston has provided grant progress information to
the BJA in a timely manner.

Budget Management and Control

     Upon grant award approval, OJP provides a Financial Clearance
Memorandum to the grant recipient that states the approved itemized
budget for the grant. We reviewed Boston’s Financial Clearance
Memorandum and a Grant Adjustment Notice to determine the
approved budget for the grant.

      City officials showed us that the grant budget is established in
the computerized accounting system. As coded expenditures are
entered into the system, the computer creates a real-time budget
monitoring summary. In addition, a Boston official maintains a
separate spreadsheet which further summarizes the coded entries into
the budget categories as presented on the Financial Clearance
Memorandum. This additional spreadsheet provides a quick snapshot
of grant spending relative to the approved budget.

       The OJP Financial Guide states that grant expenditures must be
justified by the approved budget, and movement of dollars between
approved budget categories in excess of 10 percent of the total award
must be approved in advance. To determine if Boston adhered to the
budget, we compared the grant expenditures recorded in the city’s
computerized accounting system to the budget approved in the
Financial Clearance Memo.

      From the original budget, it appeared that Boston made a large
transfer between the personnel and contract categories, as
expenditures exceeded the contract category by $7,429,322, and
expenditures in personnel were $13,043,906 less than the budget
amount. The other budget categories had immaterial transfers.
During our fieldwork, near the end of the grant period, Boston
requested and received a revised budget from OJP through a Grant
Adjustment Notice that more closely matched actual expenditures as
follows.




                                 - 7 -

      Expenditure to Budget Comparison as of January 2006


  Budget            Approved Budget        Actual Grant
  Category          as of January 2006     Expenditures        Difference
  Personnel                  $11,884,925          $7,767,963     ($4,116,962)
  Fringe Benefits               $999,170                   $0      ($999,170)
  Travel                          $10,250             $10,250              $0
  Equipment                     $939,888            $888,537        ($51,351)
  Supplies                      $703,179            $681,499        ($21,680)
  Consultants                $17,594,888         $16,891,807       ($703,081)
  Indirect Charges            $1,606,490                   $0    ($1,606,490)
  Total                     $33,738,790         $26,240,056 $(7,498,734)
  Source: Boston’s expenditure records and Grant Adjustment Notice #4

      Grant expenditures did not exceed the budgeted amount in any
category with the revised budget. Boston officials told us the revision
to the original budget was necessary because of a misunderstanding of
category definitions between Boston and OJP. For the first award,
Boston included all budgeted costs for state and other municipal
agency overtime in the personnel category along with Boston payroll
charges. OJP approved the detailed budget with all agency personnel
combined. When the supplemental award budget was submitted in
the same manner, OJP asked Boston to separate all payments to other
agencies as contract payments and not include them in the personnel
category. As a result of this communication, Boston recorded all grant
charges in this manner considering all personnel paid to outside
agencies as contract expenditures rather than personnel expenditures.
This resulted in an apparent overspending in the contract area and
underspending in the personnel category.

      Instead of waiting until the end of the grant period, we
determined that Boston should have requested a budget modification
when category definitions changed in response to the supplemental
budget in December 2004. We reviewed the detail to the original
budget and determined that if Boston had recorded expenditures in
the manner submitted on the budget, with contractors included in
personnel, there would be no material transfers between budget
categories. Because the revised budget reflects the categories of
actual expenditures, we do not make a recommendation in this area.




                                     - 8 -

Expenditures

      As stated previously, the grant period was extended from
January 31, 2006, to March 31, 2006. For this report, we included
only grant expenditures recorded up to January 31, 2006, which
totaled $26,240,056. Boston officials told us that before the grant
period is over, the city anticipates spending approximately $2,000,000
more and returning the unused funds, or about $5,700,000, to the
BJA. We reviewed a sample of Boston’s grant expenditures to
determine if the expenditures were allowable and supported.

       To determine if expenditures were allowable, we reviewed them
to determine if the expenditures were in accordance with the grant
budget and the permissible uses of grant funds outlined in the
OJP Financial Guide. To determine if expenditures were supported, we
reviewed invoices, purchase orders, and reimbursement requests. The
total expenditures are spread across five categories as follows.

       Expenditures by Category as of January 2006


           Expenditure Category              Amount
           Contracts                             $16,891,807
           City Personnel                         $7,767,963
           Equipment                                $888,537
           Supplies                                 $681,499
           Travel                                    $10,250
           Total                                $26,240,056
           Source: Boston’s expenditure records

     In the remainder of this section, we explain how we tested
expenditures to determine whether they were allowable and
supported. Overall, we tested $3,390,866 in grant expenditures.

Contract Expenditures

      Contracts is the largest expenditure category, accounting for
over half of Boston’s grant expenditures. Contract expenditures
consist of reimbursements to other agencies and companies that
provided services to Boston during the DNC. Contractors included
state police, local municipal police and sheriff departments, the local
transit authority, the turnpike commission, hospitals, private
companies, and many other entities. These contracts provided
additional personnel and essential services throughout the DNC that
                                   - 9 -

added to the overall staging and security of Boston during the
convention. A total of $16,891,807 in contract expenditures was paid
to over 100 contractors.

      Contractors were necessary because Boston did not have enough
resources and personnel to carry out the comprehensive security plans
for the DNC. Boston partnered with neighboring states and
municipalities to obtain the additional manpower and resources
required. In addition, several of these surrounding communities were
affected by temporary highway and train station closures that resulted
in additional expenses. A summary of contract expenditures by
category follows.

     Contract Expenditures by Category as of January 2006


           Contractor                            Amount
           State agencies                         $6,002,529
           MA Bay Transportation Authority        $4,179,390
           Local municipalities                   $2,131,223
           Other reimbursement contracts          $2,826,563
           Service contracts                      $1,752,102
           Total                                $16,891,807
           Source: Boston’s expenditure records

      State Agencies. State agency contracts included services from
state police departments in Massachusetts, Vermont, New Hampshire,
Maine, Connecticut, and Rhode Island. In addition to police services,
reimbursements to other Commonwealth departments such as
Corrections, Highways, and Fire Services, and to various county sheriff
departments were included in this expenditure category. Overall,
there were $6,002,529 in state agency contract reimbursements.

      The largest expenditure in the state agencies category was for
the Massachusetts State Police. The Massachusetts State Police
provided over 1,600 officers to assist during the DNC, resulting in the
reimbursement of $3,319,025 in overtime expenses. We tested a
judgmental sample of 20 employees’ overtime charges totaling
$51,057 from the State Police reimbursement request. We reviewed
electronic payroll data to determine if charges were recorded
accurately, officers worked regular time before charging overtime, and
pay rates matched the reimbursed amount. We determined that the
overtime expenses were allowed, supported, and properly charged to
the grant.
                                  - 10 -

       Massachusetts Bay Transportation Authority (MBTA). The MBTA
was the contractor with the most grant expenditures, totaling
$4,179,390. The MBTA manages the public transportation systems in
metropolitan Boston. The MBTA incurred many expenses related to
the DNC because transit systems were considered vulnerable terrorist
targets after the train bombing in Spain that occurred just months
prior to the convention.

      MBTA expenses included transit police overtime, track and
station safety inspections, campaigns to notify the public of service
changes, and various supplies and equipment used during the DNC.
MBTA expenses also included payments the MBTA made to the
Massachusetts Bay Commuter Railroad Company (MBCR) under a
contract between the two agencies that covered planning, inspections,
and equipment expenses the MBCR incurred as a result of the DNC.
Throughout the year, the MBCR is contracted to operate commuter rail
service and maintain MBTA-owned rolling stock and rights of way. The
MBCR was heavily affected by the closure of a train station that was
situated adjacent to the DNC venue.

      We tested a total of $1,085,553 in expenditures from the MBTA,
including $560,167 from the MBCR. Included in the expenditures were
payments to consultants for track inspections, planning, and logistical
issues. The OJP Financial Guide requires prior BJA approval for
consultant rates in excess of $450 a day based on an 8-hour work day.
We found 1 consultant hired by MTBA was paid rates of $90 and $250
an hour, and 1 consultant hired by MBCR was paid $95 an hour, which
exceeded the $450 a day threshold. Boston officials told us they had
not sought OJP’s approval for these consultants’ rates. Because
Boston did not obtain prior approval, we question $56,506 in
unallowable grant charges for consultant rates in excess of $450 a
day. City officials told us they were not aware of this requirement, but
they feel the rates were justified. In our opinion, when justification
and approval for excessive consultant rates are not approved in
advance, the risk that grant funds could be misspent increases. We
determined the remaining $1,029,047 in expenditures we tested were
allowable, supported, and accurately recorded.

      Local Municipalities. Local municipality contracts included
services from nearly 100 surrounding municipal police departments for
a total of $2,131,223 in grant expenditures. About 80 percent of
these municipalities were members of the North Eastern

                                 - 11 -

Massachusetts Law Enforcement Council (NEMLEC), or the
Metropolitan Law Enforcement Council (METROLEC). Municipalities
belonging to the NEMLEC and the METROLEC were eligible for
reimbursement through a Memorandum of Understanding (MOU)
developed for the convention between Boston and the organizations.
The remaining 20 percent of municipalities were mainly reimbursed
with the supplementary award and did not enter into formal MOUs
before the DNC commenced.

      We tested 5 local municipality reimbursements for a total of
$30,446 in expenditures. Charges to the grant mainly consisted of
police overtime and backfill, although some municipalities also
purchased supplies for use during the DNC. Backfill refers to payroll
for an employee to cover a shift at the home station for another
employee who was assigned to work at the DNC. We reviewed the
reimbursement requests for the municipalities in our sample to
determine if the expenses were reasonable, allowable, and supported.
We found the costs were reasonable and allowable in accordance with
the grant budget. We also found that payroll charges were adequately
supported with timesheets, and supply purchases were supported with
invoices.

      Other Reimbursement Contracts. These charges consist of
reimbursements paid to other agencies not mentioned above and
include the Massachusetts Port Authority, Massachusetts Turnpike
Authority, county sheriff offices, and several area hospitals. The
reimbursements to other agencies totaled $2,826,563.

       We tested a total of $1,217,431, including the largest payment
of $892,822 to the Massachusetts Turnpike, and payments to a county
sheriff’s office and to two local hospitals. The Massachusetts Turnpike
expenditures consisted of leveling and grading construction areas
controlled by the Turnpike for staging use during the DNC. The sheriff
office charges were for preparing jail space in the event additional
holding facilities were required. The hospitals incurred expenses
during the DNC to have additional staff on call in the event of a large-
spread medical threat. We reviewed the reimbursement requests and
supporting documentation and determined the expenditures were
allowable, supported, and properly charged to the grant.

      Service Contracts. Contracts were signed with several private
companies to provide services for the DNC. Among other services, the
contracts included design and installation of security equipment,

                                 - 12 -

equipment rental, and transportation rental for moving personnel to
key locations.

       We tested a total of $616,740 in service contracts. We tested
$298,498 for the design and installation of security cameras, and
$279,464 in rental contracts for barriers, lighting, tents, containers,
trailers, restrooms, and underwriting of property insurance. In
reviewing the expenditures, we determined the contracts adhered to
Boston’s procurement procedures. We physically verified the cameras
that were installed as part of the largest contract and determined they
were in the city’s inventory. We found the rental contracts were
reasonable, supported, and in the grant budget. Overall, we
determined the expenditures were allowable, supported, and properly
charged to the grant.

      In total, we tested $3,001,227 in contract expenditures. We
found $56,506 in unallowable charges for excessive consultant rates
not approved in advance by OJP. Overall, we determined the contract
expenditures were allowable and properly supported. We also
reviewed Boston’s procedures for processing contractor payments to
evaluate how well the city monitored contractor performance and
expenditures.

       Our evaluation of contractor monitoring included reviewing
Boston’s contractor agreements, procedures for monitoring contractor
activity, and controls related to reimbursing contractors’ expenditures.

      The relationships between Boston and the Massachusetts State
Police, MBTA, NEMLEC, METROLEC, and the Massachusetts Sheriff’s
Association were formalized in MOUs made with each agency
specifically for this grant. The MOU terms were clearly stated and
outlined the purpose, duration, conditions of operations, commitment
of personnel, fiscal administration, obligations, and procedures for
modifying the agreement. We determined the MOUs were complete
and adequately outlined eligible costs, a total reimbursement limit, and
procedures for requesting reimbursement.

      We found that Boston did not enter into a prior MOU or a
contract with every contractor that was reimbursed with grant funding.
We determined that were about 30 contractors who were reimbursed
without formal arrangements being made before the DNC began.
Additionally, there were expenses from contractors that were outside
of the scope of their MOUs and reimbursed after the MOU expired.

                                 - 13 -

The amount of contractor expenditures not reimbursed under MOUs
totaled $8,862,336, or more than half of all contractor expenditures.

      We reviewed $1,999,975 of the expenditures paid without a
prior MOU, and with the exception of the questioned costs above for
consultant rates, we found the expenditures were adequately
documented, included in the approved grant budget, and submitted in
accordance with Boston’s reimbursement request guidelines. We
asked Boston officials why there was a not a prior MOU or formal
arrangement made for these contractors and the officials told us
because these expenses were reimbursed with funds from the
supplementary award received after the DNC, the expenses were
already incurred, and it was not possible to make a pre-arrangement.

      Contractor Monitoring

      To determine how well the contractors performed, we
interviewed city and Boston Police Department officials and reviewed
documents, including an After-action Report. With all expenditure
reimbursement requests, Boston required contractors to submit
narratives describing the contractor’s work performed and how the
work was critical to DNC security.

      The Boston Police Department and the U.S. Secret Service led
the DNC planning group’s steering committee, which was comprised of
the heads of federal, state, and local entities with convention
responsibilities. The steering committee was responsible for planning
and implementing the DNC Operational Plan. The Operational Plan
outlined the roles of each entity. Throughout the convention, the
Boston Police Department was responsible for ensuring police
contractors performed their duties as required.

       Through our review of documents and interviews with Boston
officials, we did not find any instances where contractors failed to
perform as directed by the city. Overall, we determined the
contractors performed as expected and contributed to the overall
success of carrying out the Operational Plan.

      Finally, we reviewed procedures Boston followed when
processing contractor expenditure reimbursement requests. Boston
required that cost reimbursement requests be submitted electronically
and be adequately supported. The majority of contractor costs were
personnel-related, and contractors were required to submit proof of

                                 - 14 -

approved overtime rate, labor union contracts, fringe benefit
calculations, and timesheets or payroll system data supporting the
overtime charged and the regular hours worked for each employee.
Cost reimbursement requests for equipment or supplies were
supported by invoices and a description of why the item was needed
and could not be leased, if applicable.

       Boston officials explained to us the procedures they followed for
reviewing and reimbursing contractor costs. For personnel costs, the
city tested charges by recalculating the expenses claimed, reviewing
timesheets for evidence of regular hours worked, and matching labor
union contracts and approved salaries to overtime rates charged. For
non-personnel costs, the city reviewed the expense to determine if the
purchased items were security-related, supplemental, reasonable,
necessary, and not for general purpose on-going use.

       Overall, we found that Boston applied the established internal
controls over reimbursing contractor expenses, and the controls were
adequate. As a result of these controls, Boston officials told us they
denied approximately $1,000,000 of contractor expenses for reasons
such as inadequate supporting documentation, unreasonable price, not
directly related to the purpose of the grant, and equipment purchases
instead of leasing. Throughout our review of reimbursement requests,
we found evidence of Boston implementing its internal controls and
following up on requests made to contractors to justify the costs
claimed.

      From our review of Boston’s monitoring of its contractors in
connection with this grant, we have concluded that the city’s
monitoring was reasonable to safeguard grant funds and ensure
contractor performance.

City Personnel

      Boston utilized over 3,600 of its employees for planning and
carrying out support services for the DNC. The Boston Police
Department had the largest role in security efforts during the
convention, while the Boston Fire Department also made significant
contributions to the planning and safety aspects of the convention.
Several other city departments were utilized for expertise in traffic
diversion, sanitation, information technology services, inspections, and



                                 - 15 -

maintenance services. The expenditures by department are as
follows.

       Boston Personnel Expenditures as of January 2006


             City Agency                              Total
             Police Department                      $5,240,708
             Fire Department                        $1,926,937
             Property Management                      $197,464
             Public Works Department                  $160,215
             Parks and Recreation                      $76,013
             School Police                             $64,915
             Transportation                            $42,324
             Inspection Services Division              $30,771
             Management & Information Services         $28,617
             Total                                 $7,767,963
              Source: Boston’s expenditure records

       Most of the overtime charges were for the pay period during the
convention, however $533,966 was charged prior to the convention for
training and planning. We tested a judgmental sample of 30 employee
overtime charges for 1 pay period each – for a total sample of 1,390
hours and grant expenditures of $62,971 – to determine if the charges
were allowable and supported.

       To determine if the overtime charges were allowable, we
reviewed budget documents, union contracts, and city personnel
policies. To determine if the charges were supported, we reviewed the
timesheets and overtime cards for each of the employee’s selected pay
periods.

      Generally, with the exception of the unsupported Fire
Department expenditures of $18,459, the personnel charges to the
grant that we tested were allowable and adequately supported. We
reviewed the grant budget, labor union contracts, position pay scales,
timesheets, and overtime cards signed by each employee’s supervisor
for overtime and regular time worked. The specifics of our testing are
discussed below.

       Police Department. The Boston Police Department was the lead
local law enforcement agency tasked with maintaining order,
preserving public safety, protecting of life and property, and delivering
services to the residents and visitors of the city. The Operations Plan
                                  - 16 -

directed all sworn personnel to work 12-hour shifts and stated that
discretionary or vacation days off would not be approved for the week
of the DNC. Approximately 2,200 Police Department employees
charged a total of $5,240,708 in overtime related to the DNC. About
$93,600 in Police Department overtime was charged prior to the
convention planning and training.

      We tested a sample of 15 Police Department employees who had
overtime charges to the grant, totaling $26,538. Our sample
consisted of 14 charges for the pay period encompassing the entire
DNC, 1 pay period prior to the DNC, and 1 pay period after the DNC.
We determined that the Police Department overtime was accurately
recorded, adequately supported, and allowable.

       Fire Department. The Fire Department was responsible for fire
safety in buildings and event areas, crowd control, and overseeing
hazardous materials concerns. Approximately 1,050 Fire Department
employees charged a total of $1,926,936 in overtime related to the
DNC. Approximately $431,339 of the Fire Department overtime
amount was charged to the grant before the DNC for planning and
training.

      We tested a sample of 11 Fire Department employees who
charged overtime to the grant totaling $16,980. Our sample consisted
of 10 employees’ charges for the pay period encompassing the DNC,
and 1 pay period prior to the DNC. City officials could not produce a
timesheet or adequate support for 14 hours of overtime, totaling $573,
for one of the employees in our sample. After our testing and
questioning why the hours were charged to the grant without adequate
support, Boston officials processed a credit adjustment to the grant
within the city’s accounting system to remove the $573 in overtime
charges, along with $17,886 of other Fire Department overtime
charged to the grant in error. Although the error has been discovered
and corrected within Boston’s accounting system, we question $18,459
in overtime that was charged without support to ensure that the
charges are deducted on Boston’s next grant drawdown request to the
BJA. City officials told us that our audit prompted the discovery of the
$18,459 reimbursed to the grant, and the adjustment will be made on
the next drawdown. We determined all of the other Fire Department
personnel charges were allowable, supported, and accurately charged
to the grant.



                                 - 17 -

      Other Boston Departments. The other Boston departments
involved in the DNC were Property Management, Public Works,
Inspections, Parks and Recreation, School Police, Transportation, and
Management and Information Services. The total charges from all of
these departments accounted for $600,319 of the total Boston
personnel charges.

      Each of these departments contributed to the overall success of
carrying out the DNC Operational Plan. Among other support, the
After-action Report credits the departments for providing food and
water, transportation, logistical support, and technical support. The
personnel also assisted with moving fencing, ensuring uninterrupted
communications, analyzing and converting data to actionable
information, and processing financial information to ensure personnel
were paid in a timely manner.

      We tested a sample of 4 employees’ overtime charges from
these other departments, totaling $9,499. Our sample of overtime
charges consisted of two Parks and Recreation employees, one
Property Management employee, and one Transportation Department
employee. We determined that the other city department overtime
was accurately recorded, adequately supported, and allowable.

Equipment

      Equipment is tangible, non-expendable personal property that
has a useful life of more than 1 year. Boston made $888,537 in
equipment expenditures. Equipment purchases consisted of items
such as security cameras, communications equipment, and hazardous
material detectors. Several contractors also purchased equipment for
use during the DNC; however, those expenses are reported under the
contract category, along with rented equipment expenses.

      We tested a sample of $268,755 in equipment expenditures. We
determined that the equipment purchases were allowable, supported,
and purchased in accordance with Boston’s procurement procedures.
In addition, we judgmentally selected from our sample 10 high-dollar
equipment items to physically verify as follows.




                                - 18 -

        Equipment Selected for Physical Verification


                                                 Total Cost
           Telecommunication System                $70,439
           Chemical Analyzers                      $55,740
           Communication Equipment                 $26,500
           Hazardous Materials Screener            $22,286
           Telecommunications Bridge               $19,918
           Communication Equipment                 $10,965
           Custom Trailer for Hauling Barriers     $10,781
           Communication Station                    $7,419
           Telecommunications Platform              $7,115
           Hazardous Materials Analyzer             $4,680
           Total                                 $235,843
            Source: Boston’s inventory records

       We found that the chemical analyzers on our sample that cost
$55,740 were found to be defective and was returned to the
manufacturer. Boston told us it received a refund from the company
for this purchase and credited the grant for this purchase.
We verified the remaining nine items and determined the items were
located in Boston and included in inventory records. Further, city
officials verified that the items were used during the DNC. Boston
officials told us the city currently uses these items for security during
large events held throughout the year.

       Boston officials told us that whenever possible, equipment was
leased instead of purchased, since the duration of the convention was
less than a week. We reviewed equipment purchases for
reasonableness and determined that the items purchased most likely
would not be available for lease due to the custom nature and large
quantity needed. We concluded that the equipment purchases were
within the budget and were reasonable for use during the convention.

Supplies

      Supplies are items that are expected to be used once or that do
not have a useful life longer than 1 year. Boston made $681,499 in
supply expenditures. Supplies included munitions, food and beverages
for employees on duty, medical and first aid supplies, riot control
agents, and items that Boston did not have immediately available for
the convention. Some of the supplies were purchased in advance as a


                                   - 19 -

precaution and not needed during the convention. Boston will keep
these items on hand for future events.

      We tested a total of $56,983 in supply expenditures. We
determined the supplies were purchased before or during the DNC,
and some items such as food and ice were consumed, while other
items such as medical equipment and munitions were not used during
the DNC but needed to be available. Overall, we found supply
expenditures were accurately recorded, adequately supported, and
allowable

Travel

      Travel was not initially an approved budget category, but Boston
requested a revised grant budget, and travel was approved in a
January 2006 budget revision. Boston charged $10,250 in travel
expenditures to send members of the security planning committee to
New York City to assist officials there with security for the Republican
National Convention.

       We tested 1 employee’s travel reimbursement totaling $931.
Boston officials told us travel charges were made in accordance with
the city’s travel policy. We reviewed the travel policy, which has
procedures to authorize official travel and outlines allowable expenses.
We reviewed the travel expenditure and determined the costs were
reasonable, supported, and reimbursed to the employee in accordance
with Boston’s travel policy.

Drawdowns

       Drawdown is a term used by OJP to describe when a recipient
requests grant funding from the total award amount for expenditures
associated with the grant program. A Boston official explained that
the city draws down money when either the city Audit Department
records a large expense, or periodically as total expenditures are
reviewed. Boston made eight drawdowns as of January 2006. The
drawdown schedule is as follows.




                                 - 20 -

                 Grant Drawdowns as of January 2006


               Drawdown Date         Drawdown Amount
                           8/8/2004               $1,907,642
                          8/31/2004                 $625,349
                        10/22/2004                $6,608,465
                          11/5/2004               $4,070,982
                          1/12/2005                 $428,403
                          3/24/2005               $1,883,687
                           6/1/2005               $3,510,869
                          7/15/2005               $4,730,036
               Total                            $23,765,433
              Source: OJP Drawdown Records

      The OJP Financial Guide states that grant recipients are to
minimize the time elapsing between the transfer and disbursement of
grant funds. To determine if Boston’s drawdown requests were
supported, we reviewed the expenditures recorded in the city’s
accounting system as of each drawdown date. We found that all
drawdowns were supported, with an equal amount of grant
expenditures. We determined that Boston only requested grant
funding after using its own funds to make grant-related expenditures.
This practice eliminates the potential that Boston would request grant
funding long before the money is needed.

Program Performance

       As part of this audit, we sought to measure Boston’s success in
meeting the objectives. To accomplish this, we interviewed city
officials and reviewed the DNC Operations Plan, After-action Report,
crime statistics, personal injury reports, and property damage reports.

      Specific objectives are not listed in the grant award or other
documentation. According to the After-action Report, the Boston
Police Department’s role during the convention, and what we consider
to be the objectives of this grant, was to maintain order, preserve
public safety, protect life and property, and deliver services to
residents and visitors to the city.

      The DNC was the first national convention after the terrorist
attacks on the World Trade Center on September 11, 2001, and was
designated as a National Special Security Event (NSSE) by the
U.S. Secret Service. When an event is so designated, the Secret
Service assumes its mandated role as the lead agency for the design
                                - 21 -

and implementation of the operational security plan. The NSSE
designation is used to delineate the roles of federal agencies to
eliminate the duplication of efforts and resources.

      The DNC planning group was comprised of the heads of federal,
state, and local agencies, and was led by the Secret Service and the
Boston Police Department. The group was responsible for developing
the security Operations Plan that detailed the scope, level, type, and
manner of services provided to the DNC. Under the Operations Plan,
the Boston Police Department was designated the lead local law
enforcement agency to carrying out the objectives stated above. The
three issues of concern and critical to planning were training,
personnel, and financial and material resources. According to the
After-action Report, the grant provided the sole funding for the DNC,
and the planning group recognized the importance of not exceeding
the grant budget to avoid the necessity of tapping the city’s operating
funds to support the convention.

       The planning group encountered two difficulties: budgetary
limits and unresolved labor issues. Boston officials told us the timing
of the grant awards greatly affected the operations plan. Planning
began in December 2002, but the initial grant was not awarded until
over a year later, in February 2004. All of the planning prior to the
award was funded by the city. The supplementary grant was not
awarded until after the convention ended, and Boston could not take
advantage of most this available funding since the convention-related
expenses were already incurred. The budgetary limits resulted in less-
than-desired amounts of personnel, supplies, and equipment –
especially surveillance equipment. The labor issue caused a lack
sufficient relief for officers on certain posts.

      According to Boston officials, an estimated 35,000 people
attended the convention. Police officials told us there were only six
arrests for theft, disorderly conduct, and assault and battery, related
to the convention and that personal injuries and property damage was
unexpectedly light considering the nature of the event and the large
number of people attending the convention. Because of the small
number of crimes, injuries, and damage related to the convention,
Boston officials told us they achieved the objectives of this grant. We
agree. Additionally, the officials said command and control systems
improved and standardization in training and resource tracking also
improved as a result of the event. Overall, the DNC After-action
Report attributes the success of the DNC to the advance planning and

                                 - 22 -

effective implementation of the plans. Boston officials also credited as
contributing to the success in meeting the grant objectives the
training, personnel, and services offered at no cost from several
federal agencies, such as the Federal Emergency Management,
Transportation Security Administration, Federal Bureau of
Investigation, Secret Service, and U.S. Coast Guard.

Conclusions

      We determined that Boston complied with most grant
requirements in the areas we tested and also achieved the objectives
of the grant. However, Boston did not provide justification or obtain
approval for $56,506 in excessive consultant expenses and did not
provide support for $18,459 in personnel overtime charged to the
grant. As a result of these deficiencies, we question $74,965 in
expenditures.

Recommendations

      We recommend that the BJA:

     1. Remedy $56,506 in excessive consultant rates charged at
        more than $450 a day, based on an 8-hour day, without the
        BJA’s prior approval.

     2. Ensure $18,459 in unsupported expenditures is deducted from
        the next drawdown request.




                                 - 23 -

                                                          APPENDIX I

               OBJECTIVES, SCOPE, AND METHODOLOGY

      The objective of the audit was to determine whether
reimbursements claimed for costs under the grant were allowable,
supported, and in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the grant.

      We conducted our audit in accordance with Government Auditing
Standards and included tests considered necessary to accomplish our
objectives. Our audit concentrated on, but was not limited to, the
inception of the grant through January 31, 2006. We audited grant
2004-DD-B5-1136 and its supplement, which provided to Boston
$33,738,790 for security during the Democratic National Convention in
Boston from July 26-29, 2004.

       We tested compliance with what we considered to be the most
important conditions of the grant. Unless otherwise stated in our
report, we applied the 2002 Office of Justice Programs (OJP) Financial
Guide as our primary criteria in auditing this grant. The OJP Financial
Guide serves as a reference manual assisting award recipients in their
fiduciary responsibility to safeguard awarded funds and ensure funds
are used appropriately. We used the 2002 version of the OJP Financial
Guide which was applicable during the life of the grant.

      In conducting our audit, we performed testing in each of the
following areas.

       We tested reporting to determine if the required Financial Status
Reports (FSRs) were submitted on time and accurately reflect grant
activity. We reviewed each of Boston’s FSRs for accuracy by
comparing grant expenditures reported on the FSR to the actual grant
expenditures recorded in Boston’s automated accounting system. We
also reviewed each of Boston’s FSRs for timeliness by comparing the
submission date on each report to the quarter end date. Using the
OJP Financial Guide for our criteria, we determined FSRs to be late if
they were submitted more than 45 days after the end of the quarter
reporting period, and a final FSR to be late if submitted more than 120
days after the end date of the award.

      To determine if the required progress reports were submitted on
time and accurately reflect grant activity, we reviewed Boston’s

                                 - 24 -

progress report for grant 2004-DD-B5-1136 for accuracy by comparing
grant activity shown in grant documentation that was supplied to us by
OJP and Boston to activity that was reported in the progress report.
We also reviewed the progress report for timeliness by comparing the
submission date on the report to the semiannual reporting period end
date. Using the OJP Financial Guide as criteria, we determined
progress reports to be late if they were submitted more than 30 days
past the end of the reporting periods of June 30 and December 31.

      We tested drawdowns to determine whether requests for grant
funding were adequately supported and whether Boston minimized the
amount of time between receiving and disbursing funds. We
compared Boston’s expenditure records, FSRs, and other
documentation to the drawdowns reported by OJP.

      We tested budget management and control to determine
whether the grantee adhered to the OJP approved budget for
expenditures of grant funds. We compared the OJP-approved Financial
Clearance Memorandum and grant application to Boston’s
expenditures records and documentation. The OJP Financial Guide
states that the cumulative transfer amount between approved budget
categories cannot exceed 10 percent of the total budget.

     We tested grant expenditures to determine if costs charged to the
grant were accurate and allowable. We reviewed personnel,
contractor, equipment, supply, and travel expenditures.

     We judgmentally selected for testing a sample of expenditures
from each category. We compared the amounts charged to the grant
to source documents, such as contracts, invoices, reimbursement
requests, and purchase orders, to determine whether the equipment
expenditures were properly supported. We also compared the
expenditures to the approved grant budget to determine whether the
expenditures were allowable.

    To determine if equipment was being used for grant purposes, we
conducted accountable property verification testing on a judgmental
sample of expenditures.

     We tested program performance to determine if grant objectives
are being met. Specific objectives were not listed in the grant award.
According to the After-action Report, the Boston Police Department’s
role during the convention, and what we consider to be the objectives

                                - 25 -

of this grant, was to maintain order, preserve public safety, protect life
and property, and deliver services to residents and visitors to the city.
To determine if the objectives were met, we interviewed city officials
and reviewed the DNC Operations Plan, After-action Report, crime
statistics, personal injury reports, and property damage reports.

     Test for program income, matching costs, and subgrantee
monitoring. When applicable, we also test for compliance in the areas
of program income, matching funds, and monitoring of subgrantees.
For this grant, we reviewed grant documentation, interviewed
responsible officials, reviewed grant expenditures, and determined
Boston generated no program income, matching funds were not
required, and there were no subgrantees.

     We did not test internal controls for Boston as a whole or
specifically for the BJA grant administered by Boston. Boston had an
audit conducted by an independent Certified Public Accountant, the
results of which were reported in the Single Audit Report that
accompanied the Comprehensive Annual Financial Report for the year
ended June 30, 2004. The Single Audit Report was prepared under
the provisions of Office of Management and Budget Circular A-133.
We reviewed the independent auditor's assessment and determined
that no control weaknesses or significant noncompliance issues were
found that related to Boston or its federal programs. In addition, we
performed limited testing of source documents to assess the accuracy
of reimbursement requests and financial status reports; however, we
did not test the reliability of the financial management system as a
whole.




                                  - 26 -

                                                                     APPENDIX II

                 SCHEDULE OF DOLLAR-RELATED FINDINGS

QUESTIONED COSTS:                                                       AMOUNT        PAGE

 Unallowable Expenditures                                                $56,506       11

 Unsupported Expenditures                                                $18,459       18

TOTAL QUESTIONED COSTS:                                                  $74,965

TOTAL DOLLAR-RELATED FINDINGS:                                          $74,965

    Questioned Costs are expenditures that do not comply with legal, regulatory, or
    contractual requirements, or are not supported by adequate documentation at the
    time of the audit, or are unnecessary or unreasonable. Questioned costs may be
    remedied by offset, waiver, recovery of funds, or the provision of supporting
    documentation.




                                         - 27 -

                                                                                               APPENDIX III 


   CITY OF BOSTON’S RESPONSE TO THE DRAFT REPORT




                                                                                                Boston Ci ty Hall
                                             City of Boston
                                                                                        OM Ci tl' Hall Pla:a • Room M'-4
                                           Auditing Department                           llomto n · MasSlIc hust"1I> 0 2201
                                                                                        (617) 6}5.-4671 • Fn: 6H.-4}}9

                                                  April 20, 2006



   Richard A. McGeary
   Regional Audit Manager
   Office of Inspector General
   Philadelphia Regional Audit Office
   101 Market Street, S uite 20 1
   Philadelphia. Pennsylvania 29106
   Dear Mr. McGeary,

   Below please find the City of Boston's response to the recommendat ions for the audit report dated
   March 3 1, 2006 for Bureau of Justice Assistance (BJA) Democratic National Convention SecurilY
   grant number 2004-DO- B5- 11 36.

       I. Remedy S56,MJ6 in €XCe.ss;W! consultant rates clrarged at more tlran S450 a day. based an an 8
          Irour day, witlrout the BJA 's prior approval.

              Documentation and justification for consultant rates exceeding $450 a day, based on an 8
              hour day, was submitted to the BJA for approval. On Apri l 1" 2006, the City received
              retroactive approval from the BJA to exceed the S4SOIday consultant rate limit.

      1. Ensure S18.459 in "nsupported expendilZl~ is deducted/rom next drowdo ....n request.
              Full documentation has been sent to BJA to support that $ 18,459 in unsupported
              expenditures were deducted from grant expenditures on March 21 , 2006.

   In addi tion. Ihe City offers the following commen ts on the disc ussion portion of the a udit:

              ,/ Page 14 of the report states that Boston did not enter into an MOU or a contract with
                 every contractor that was reimbursed with grant funding. In fact , the City had formal
                 contracts with every outside agency. If you are specifically referring to a formal pre·
                 arranged contract laying outlenns and conditions prior to th e event, as noted in the
                 report, such an arrangemen t was impossible due to gran t approval occurring long after
                  the event took place.

               ,/ Page 14 of the report, states that "there were eltpenses from contractors that were
                  outside of the sc;ope of their MOU's and reimbursed after the MOU ex pired." The City
                  disputes this comment in that a contnlct amendment was put in place on August 22,
                  2005, providing an ex tension oftenns including both tim eframe and types of costs (a
                  copy of that amendment is attached).




0 ____ _                                   Thomas M . Mcnino, Mayo r
                                           S311\' D. Glora. Cilv Audit o r                                        .,.;-, ,.
                                                     - 28 -

           ./ Page 19 of the report. ineorrcctly iden tifi es a telecommunications system as being found
              defective. For clarification the items found to be defective were chemical analyzers.
              However, the point made is correct, the item w as returned , and reimbursement made 10
              the grant. The item was then re-purchased, with pennission from BlA.

Should you o r yOUT omce have any rurther comments or if your require clarificatioll, please COlltact me
at 617-635-4671.



                                             Sincerely,




                                       - 29 -

                                                                                    APPENDIX IV

            OFFICE OF JUSTICE PROGRAMS RESPONSE
                    TO THE DRAFT REPORT


                                                     u.s. Department 01 JustJce
                                                     Office of Justice Programs

                                                     Office oftM Comptrolhr


                                                     ~D.C.2Q;!1 J I

 APR 282006
MEMORA NDU M TO:             Richard A. McGeary
                             Regional Audit Manager
                             Philadclphia Regional Audit Officc
                             Office of the Inspector Genera l


fROM:                  J.J
                       t
                       v
                             Marc ia K. Paull
                             Acting Comptroller

SU BJECT:                    Rcsponsc to tllc Draft Audit Repon ofthe Office of justice
                             Programs - Bureau of Justice Assistance Grant to the City of
                             Boston, Grant Number 2004-00 -8 5-11 36

This memorandum is in reference to your conespondence dated Mmh 31, 2006, transmitti ng the
dl()ve-referem:ed draft aud it report for the City of Boston. We consider the subject report
resolved and request 'Nl"itten acceptance ofthi$ action from your office.

The report contains two re<:o mmendations and $74,965 in questioned costs. The following is our
analysis orthe audit recommendations.

I.     Rem edy S56,506 in excessive eonsult-Int rat es charged at more th an $450 a day,
       based on an 8-hour day, without the DJA' s prior approva l.

       We agree with the recommendation. The Bureau of Justice Assistance retroactively
       approved the City of Boston's request 10 exeeed the $450 a day consultant rates.
       Therefore, we request closure of the recommendation and the $56,506 in associated
       questioned costs.

2.     Ensure $ 18,459 In unsupported upt:nditures it deduded      f~ED   tb e nut drawdowa
       requell.

       We agre<: with Ihe recommendation. We will coordinate with the City of Boston to
       ensure that the $ 18,459 in unsupported expenditures lfe reduced from il$ next drawdown
       request.

We apprecia te the opportunity 10 review and comment on the draft report. We will continue to
work wilh the grantee to address the recommendations. If you have any questions or require
additional informat ion. please contact Alisha Holman of my staff al (202) 6 16-2926.




                                           - 30 -

cc:   Richard P. Theis
      Acting Director
      OOJ Audit Liaison Office

      Maria Pressley
      Audi t Liaison
      Bureau of Justice Assistance

      Matthew Hanson
      Acting Associate Deputy Director of Programs
      Bureau of Justice Assistance

      Darius Locicero
      Program Manager
      Rureau of Justice Assistance

      OJP Executive Secretariat
      Control Number 200605 18

      Official Grant Fite
      Grant Numbcr2004·DD-B5-1136




                                            2




                                         - 31 -

                                                         APPENDIX V

       OIG, AUDIT DIVISION, ANALYSIS AND SUMMARY OF
          ACTIONS NECESSARY TO CLOSE THE REPORT

       We provided the draft report to both Boston and OJP for review
and comment. In its response, Boston said that it requested retroactive
approval for unallowable consultant expenditures, and unsupported
overtime expenditures would be deducted from its next drawdown
funding request. OJP agreed with both of our recommendations. We
consider the first recommendation closed, and the second
recommendation resolved. We included Boston’s response as Appendix
III to this report, and OJP’s response as Appendix IV. The status of the
individual recommendations and the action necessary to close the
second recommendation is provided below.

1. 	   Closed. Remedy $56,506 in excessive consultant rates charged
       at more than $450 a day, based on an 8-hour day, without the
       BJA’s prior approval.

       This recommendation is closed based on the BJA’s retroactive
       approval of consultant expenditures exceeding the $450 limit.

2. 	   Resolved. Ensure $18,459 in unsupported expenditures is
       deducted from the next drawdown request.

       This recommendation is resolved based on Boston deducting the
       unsupported expenditures on March 21, 2006, from the
       calculation for its next grant reimbursement request, and on
       BJA’s agreement to coordinate with Boston to ensure that
       unsupported expenditures are deducted from Boston’s next
       drawdown funding request. This recommendation can be closed
       when we receive documentation that $18,459 was reduced from
       the drawdown funding request.




                                 - 32 -

